                          CLOSEOUT NIEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have pornographic material on the hard
drive of an NSF computer assigned to him and located at his residence. The subject had returned the
computer to NSF, and the anonymous complainant had allegedly found the material on it when (s)he
used it. OIG obtained the computer and turned it over to IRM for review. IRM's review of the
subject's office computer showed no evidence of improper material. This matter was referred to
NSF management. The subject was counseled about the use of NSF equipment at home. The
cleaned computer was returned to the division.

Accordingly this case is closed.
